THE CRIMINAL DIVISION’S LAPTOP

COMPUTER ENCRYPTION PROGRAM

        AND PRACTICES


       U.S. Department of Justice

     Office of the Inspector General

              Audit Division


          Audit Report 10-23

             March 2010

         THE CRIMINAL DIVISION’S LAPTOP COMPUTER
           ENCRYPTION PROGRAM AND PRACTICES

                               TABLE OF CONTENTS
                                                                                       Page

INTRODUCTION ....................................................................         1

     OIG Audit Approach .......................................................           2

     OIG Results in Brief........................................................         3

     Background ....................................................................      4

FINDING AND RECOMMENDATIONS......................................                        10

     The Criminal Division’s Efforts to Ensure Safeguards

       Over DOJ Data on Laptop Computers

       Need Improvement ....................................................             10

     Laptop Computers Owned by the Criminal Division ........                            10

     Laptop Computers Owned by Contractors and

       Subcontractors...........................................................         17

     Recommendations..........................................................           19


STATEMENT ON INTERNAL CONTROLS..................................                         21


STATEMENT ON COMPLIANCE WITH LAWS

AND REGULATIONS ..............................................................           22


APPENDIX I:	          OBJECTIVES, SCOPE, AND METHODOLOGY ..                              23


APPENDIX II:	 ACRONYMS ..................................................                25


APPENDIX III: CRIMINAL DIVISION’S RESPONSE...............                                26


APPENDIX IV:	 OFFICE OF THE INSPECTOR GENERAL

              ANALYSIS AND SUMMARY OF ACTIONS 

              NECESSARY TO CLOSE THE REPORT.............                                 31

                   THE CRIMINAL DIVISION’S
                 LAPTOP COMPUTER ENCRYPTION
                   PROGRAM AND PRACTICES

                               INTRODUCTION

      Significant losses of sensitive data and personally identifiable
information have occurred in both the government and in the private
sector over the past few years. 1 For example, in May 2006 the
Department of Veterans Affairs reported that a laptop computer
containing personal information on approximately 26 million veterans
and active duty military personnel had been stolen, and an
investigation determined that the laptop was not encrypted. 2 In
February 2009 a federal judge approved the government’s plans to
pay $20 million for out-of-pocket expenses for credit monitoring or
physical symptoms of emotional distress to veterans exposed to
possible identity theft resulting from the laptop loss.

      In 2009, the Department of Justice Office of the Inspector
General (OIG) issued a report on the Civil Division’s laptop computer
encryption program and practices in which we found significant
weaknesses concerning unencrypted laptop computers used by its
contractors, subcontractors, and vendors and other issues. 3 The Civil
Division concurred with our findings and is in the process of
implementing corrective action, including ensuring that laptop
computers used to process Department of Justice (DOJ) data are
encrypted.

      As a result of our findings in the Civil Division report, we initiated
this audit to assess the adequacy of laptop computer encryption
deployment practices in the Criminal Division. The Criminal Division is
responsible for prosecuting significant criminal cases of national
interests such as organized crime, money laundering and narcotics,


       1
          The term “personally identifiable information” refers to information that can
be used to distinguish or trace individuals’ identity, such as their name and social
security number.
       2
        Encryption is the use of algorithms (i.e., mathematically expressed rules) to
encode data in order to render it readable only for the intended recipient.
       3
          U.S. Department of Justice, Office of the Inspector General, The Civil
Division’s Laptop Computer Encryption Program and Practices, Audit Report 09-33
(July 2009).


                                           1

and dangerous drugs, and it treats all work processed on DOJ laptops
as sensitive.

OIG Audit Approach

      Our audit objectives were to determine whether the Criminal
Division complies with federal and DOJ policies regarding: (1) the use
of whole disk encryption on the laptop computers that Criminal
Division employees, contractors, subcontractors, and other vendors
use to process DOJ sensitive and classified information; and
(2) encryption certification procedures for the laptop computers of
contractors, subcontractors, and other vendors providing services to
the Criminal Division.

     The scope of our audit included two types of laptop computers:
(1) laptops owned by the Criminal Division, and (2) laptops owned by
contractors, subcontractors, and other vendors working for the
Criminal Division. The laptop computers owned by the Criminal
Division are mostly “pooled” laptops that are loaned to Criminal
Division employees and to contractors on an as-needed basis. All
Criminal Division-owned laptop computers are authorized to process
“sensitive but unclassified” information.

      During our audit, we interviewed officials within the Criminal
Division, Justice Management Division (JMD), and contractor personnel
with responsibility for encryption policy development and deployment
practices. Additionally, we interviewed Procurement and Contracting
Staff at JMD. Within the Criminal Division, we interviewed Contracting
Officer’s Technical Representatives (COTR), Criminal Division
contractors and subcontractors, and attorneys regarding laptop data
security practices.

       As of November 5, 2009, the Criminal Division had 799 laptops
listed in ARGIS, the Department’s official property management
system. We selected a sample of 40 laptops for testing and required
that the Section Laptop Managers, who are responsible for laptop
computers within their section, log on to these laptops. For this
sample, we verified that encryption software was completely installed
and that the installation date was documented within the software.
We also followed up on a DOJ Computer Emergency Response Team




                                  2

(DOJCERT) incident report in May 2009 by the Criminal Division that
related to the loss of a laptop computer. 4

      We also tested non Criminal Division-owned laptops on two
major contract types used by the Criminal Division, Mega 3 and the
Offices, Boards, and Divisions (OBD 47) contracts for litigation
support. We visited two off-site facilities to verify data security
practices by a Mega 3 contractor and subcontractor. 5 From three
Criminal Division sections, we selected 9 of 18 OBD 47 contractors to
test contractor-owned laptops for the installation of whole disk
encryption software.

OIG Results in Brief

Criminal Division-Owned Laptop Computers

      Our review found that of the 40 laptops we tested for encryption
software, 10 did not have encryption, and 9 of those 10 did not have
Windows passwords enabled. All of the unencrypted laptops were in
one Criminal Division section, the International Criminal Investigative
Training Assistance Program (ICITAP), and all of those laptops
contained sensitive departmental data.

      In addition to our testing of laptops for encryption, we found
weaknesses in other areas of the Criminal Division’s laptop encryption
program. We determined that at least 43 laptops did not comply with
DOJ standards and Criminal Division requirements for laptop security
settings. 6 Also, documentation was not maintained to verify the
successful installation of whole disk encryption software for all laptop
computers. In addition, the Criminal Division was unable to produce
an accurate inventory of the universe of laptop computers it owns from
ARGIS, DOJ’s official property management system.


       4
          DOJCERT is a reporting and tracking system that provides support of the
resolution of issues that could disrupt working operations of the Department of
Justice's Information Technology (IT) systems. DOJCERT is responsible for
coordination and support of all response activities.
       5
         The Criminal Division COTR and Mega 3 contractors stated that Mega 3
contracted litigation support providers do not use laptop computers. Therefore, we
did not have any Mega 3 laptops to test.
       6
         As we explain in detail in the Baseline Configuration Section of this report,
we confirmed with Information Technology Management that 43 laptops were not in
compliance with DOJ requirements.


                                           3

Non-Criminal Division-Owned Laptop Computers

      We found serious deficiencies with the OBD 47 contractor-owned
laptops. Specifically, seven out of nine OBD 47 contractors we tested
processed sensitive Department data on laptops without encryption.

      In addition to our testing of contractor laptops for encryption, we
found weaknesses in oversight of data security policies for the Criminal
Division’s contractors. For both the Mega 3 and OBD 47 contracts, we
found that these contracts did not have the required security clause
requiring encryption, and the Criminal Division had not implemented
alternative controls to compensate for the contract deficiencies.

Background

      The Criminal Division develops, enforces, and supervises the
application of federal criminal laws, except those specifically assigned
to other components such as the Antitrust, Civil Rights, Environment
and Natural Resources, and Tax Divisions. The Criminal Division and
the 93 U.S. Attorneys have the responsibility for overseeing criminal
matters under more than 900 statutes as well as certain civil litigation.
In addition to its direct litigation responsibilities, the Criminal Division
formulates and implements criminal enforcement policy.

       The Criminal Division also approves or monitors sensitive areas
of law enforcement, such as participation in the Witness Security
Program and the use of electronic surveillance; advises the Attorney
General, Congress, the Office of Management and Budget (OMB), and
the White House on matters of criminal law; provides legal advice and
assistance to federal prosecutors and investigative agencies; and
provides help to coordinate international as well as federal, state, and
local law enforcement matters.

      As of January 2010, the Criminal Division had 747 full-time
employees on-board. It is comprised of but not limited to the
following sections: Organized Crime and Racketeering Section
(OCRS); Asset Forfeiture and Money Laundering Section (AFMLS);
Fraud Section (FRD); Computer Crime and Intellectual Property
Section (CCIPS); International Criminal Investigative Training
Assistance Program (ICITAP); Domestic Security Section (DSS); Child
Exploitation and Obscenity Section (CEOS); Office of Overseas
Prosecutorial Assistance, Development and Training (OPDAT); Narcotic
and Dangerous Drug Section (NDDS); and Office of Enforcement
Operations (OEO).


                                     4

      The Criminal Division’s Information Technology Management
group is responsible for the implementation and oversight of laptop
security throughout the Division. The Information Technology
Management staff installs encryption software for Criminal Division
laptops and provides technical support.

        In its work, the Criminal Division uses contractors,
subcontractors, and other vendors (such as expert witnesses,
specialists, and consultants) to assist with its wide range of duties.
The two major contract types used by the Criminal Division to obtain
litigation support services are the Mega 3 and the OBD 47 contracts. 7
Contracted litigation support providers help acquire, organize, develop,
and present evidence throughout the litigation process.

       During our audit, we requested from the Criminal Division a list
of contractors supporting the Division. In December 2009, the
Criminal Division provided us with a list of 168 full-time contractors.
This list included some Mega 3 contractors, but the Criminal Division
was unable to provide an accurate number of Mega 3 contractors from
the list of 168 contractors during audit field work.

      In order to identify an accurate number of OBD 47 contractors,
we requested a list from the Criminal Division’s Office of
Administration (ADMIN). We also selected a sample of three sections
(Fraud, Asset Forfeiture and Money Laundering, and Office of Special
Investigations) to review OBD 47 contractor compliance with the DOJ
Procurement Guidance Document (PGD) 08-04, and we received
separate contracting lists from each of these three sections. However,
we noted a material difference between the list provided by ADMIN
and the section specific lists. Specifically, the three sections sampled
for OBD 47 review provided us with 24 contracts, but 8 of those 24
contracts were not included on the list provided by ADMIN. These 24
contracts covered 18 distinct OBD 47 contracting entities. 8 Therefore,
the ADMIN provided list is not a complete and accurate account of the
OBD 47 contracts. Subsequently, the Criminal Division was unable to
confirm an accurate number of OBD 47 contractors.

       7
         The Mega 3 contracts provide automated litigation support services and the
OBD 47 contracts are used to procure the services of expert witnesses or litigation
consultants. See Appendix I, Objectives, Scope, and Methodology for more details.
       8
          Our testing of OBD 47 contractors (individuals and companies) differs from
the total number of contracts reviewed because an OBD 47 contractor may be
responsible for working on multiple contracts.


                                         5

Laptop Encryption Policy within the DOJ

      DOJ Order 2640.2F establishes laptop encryption policy for DOJ
employees and contractors. Chapter 2, section 12 states that
information on mobile computers or devices (e.g., notebook
computers, personal digital assistants) and removable media shall be
encrypted using a National Institute of Standards and Technology
(NIST), Federal Information Processing Standards (FIPS) 140-2
validated or National Security Agency (NSA) approved encryption
mechanisms.

Laptop Encryption Policy for Contractors

      On March 20, 2008, the Department’s Senior Procurement
Executive issued DOJ PGD 08-04, Security of Systems and Data,
Including Personally Identifiable Information. PGD 08-04 contains a
security clause addressing Department systems and data, including
provisions governing the use of laptops by contractors, that must be
included in all current and future contracts where a contractor handles
data that originated within the Department, data that the contractor
manages or acquires for the Department, and data that is acquired in
order to perform the contract and concerns Department programs or
personnel. In addition, the contractor must comply with all security
requirements applicable to Department systems, and the use of
contractor-owned laptops or other media storage devices to process or
store data covered by the clause is prohibited until the contractor
provides a letter to the contracting officer certifying the following
requirements:

  1. Laptops must employ encryption using a FIPS 140-2 approved
     product;

  2. The contractor must develop and implement a process to ensure
     that security and other applications software is kept up-to-date;

  3. Mobile computing devices must utilize anti-viral software and a
     host-based firewall mechanism;

  4. The contractor must log all computer-readable data extracts
     from databases holding sensitive information and verify each
     extract including sensitive data has been erased within 90 days
     or its use is still required. All DOJ information is considered



                                   6

     sensitive information unless designated as non-sensitive by the
     Department;

  5. Contractor-owned removable media, such as removable hard
     drives, flash drives, CDs, and floppy disks, containing DOJ data,
     must not be removed from DOJ facilities unless encrypted using
     a FIPS 140-2 approved product;

  6. When no longer needed, all removable media and laptop hard
     drives shall be processed (sanitized, degaussed, or destroyed) in
     accordance with security requirements applicable to DOJ;

  7. Contracting firms shall keep an accurate inventory of devices
     used on DOJ contracts;

  8. Rules of behavior must be signed by users.	 These rules must
     address at a minimum: authorized and official use; prohibition
     against unauthorized users; and protection of sensitive data and
     personally identifiable information; and

  9. All DOJ data will be removed from contractor-owned laptops
     upon termination of contractor work. This removal must be
     accomplished in accordance with DOJ Information Technology
     (IT) Security Standard requirements. Certification of data
     removal will be performed by the contractor’s project manager
     and a letter confirming certification will be delivered to the DOJ
     Contracting Officer within 15 days of termination of contractor
     work.

      These requirements also apply to all subcontractors who perform
work in connection with Department contracts. For each
subcontractor, the contractor must certify that it has required the
subcontractor to adhere to all such security requirements. Any breach
by a subcontractor of any of the provisions is attributable to the
contractor.

      According to PGD 08-04, all current Department contracts must
be modified to include the applicable clause within 60 days of the date
of the issuance of the guidance, which was March 20, 2008, after
which, laptops or devices not covered by certification letters may not
be used on DOJ contracts. A request for a waiver from the
requirement to include these clauses, or any deviations from the
language of these clauses (except those that are more stringent),
must be made in writing to the DOJ Senior Procurement Executive.


                                   7

According to the Senior Procurement Executive, permission for a
deviation or waiver is only granted in unusual circumstances.

Civil Division’s Request for a Waiver of Implementation of PGD 08-04,
“Civil Waiver”

      In July 2008, in response to the PGD 08-04 document, the Civil
Division issued a memorandum to the Senior Procurement Executive
requesting an exemption from the requirement to incorporate the
security clause into the Mega 3 contractors on behalf of all litigating
components, which includes the Criminal Division.

      In January 2009, the Senior Procurement Executive granted a
waiver to exempt the security clause from being incorporated into the
Mega 3 contracts after the Civil Division provided the following
requirements to ensure that data security measures were implemented
and enforced for the Mega 3 contracts:

         1. data security guidance and instructions that were issued to
            vendors;

         2. written acknowledgement from the contractors that they
            have received and accepted that data security guidance
            and instructions;

         3. a statement by contractors agreeing to provide the data
            security guidance and instructions to all applicable
            employees and subcontractors and to provide adequate
            security training; and

         4. a more detailed description of the steps that were taken
            and would be taken to ensure that data security measures
            are implemented and enforced.

     As requested, the Civil Division provided documentation to JMD
on how the Civil Division would meet the IT security requirements for
Mega 3 contracts only. The Senior Procurement Executive did not
address any other contract vehicles other than Mega 3 contracts in his
January 2009 memo. As a result, the waiver only applied to the
Mega 3 contracts and did not apply to the OBD 47 contracts.

     During our audit of the Criminal Division, JMD informed us that
the waiver applied to all litigating divisions. However, the Criminal



                                   8

Division officials were unaware of the PGD 08-04 security clause and
the waiver.

Impact of the Waiver

      Although the Civil Division was granted the waiver for the
Mega 3 contracts on behalf of all litigating Divisions, including the
Criminal Division, the revised Rules of Behavior for the Mega 3
contracts still required that contractors encrypt all Departmental data
stored on laptops and on removable media being transported outside
the Department’s physical perimeter. Therefore, regardless of the
waiver, Mega 3 contractors, subcontractors, and vendors are still
required to encrypt all laptop computers processing DOJ data.




                                   9

            FINDING AND RECOMMENDATIONS

     The Criminal Division’s Efforts to Ensure Safeguards Over
     DOJ Data on Laptop Computers Need Improvement

     We found that for laptops owned by the Criminal Division:
     (1) at one Criminal Division section, ICITAP, laptop
     computers used to process sensitive DOJ data were not
     encrypted; (2) at two Criminal Division sections (ICITAP
     and CCIPS), baseline configurations were not consistent
     with DOJ requirements for all laptop computers used to
     process DOJ data; (3) the Criminal Division did not
     maintain documentation to verify the successful
     installation of whole disk encryption software for all laptop
     computers; and (4) the Criminal Division did not maintain
     a complete and accurate laptop inventory in ARGIS.

     In addition, the Criminal Division’s efforts to ensure
     contractor safeguards over DOJ data need immediate
     attention to correct significant weaknesses. We found
     that: (1) contractor laptops used to process sensitive DOJ
     data were not encrypted; and (2) the Criminal Division did
     not provide sufficient oversight regarding the enforcement
     of data security measures for OBD 47 and Mega 3
     contracts.

Laptop Computers Owned by the Criminal Division

Encryption Test Results

       DOJ Order 2640, 2F Chapter 2 Section 12, Protection of Mobile
Computers/Devices and Removable Media, notes that information
physically transported outside of the Department’s secured physical
perimeter is more vulnerable to compromise. The intent of this policy
is to compensate for protections not provided by physical security
controls when information is removed from the component location.
In accord with this Order, information on mobile computers/devices
(e.g., notebook computers, personal digital assistants) and removable
media must be encrypted using FIPS 140-2 validated or NSA approved
encryption mechanism. In addition, the Order requires DOJ
components to ensure that all security related updates are installed on
mobile computers and devices.




                                  10

      The Criminal Division’s Standard Operating Procedures (SOP),
Stand Alone Laptop PC Management Version 4.2, requires that the
Division’s laptop System Administrator install PointSec hard drive
encryption software on each laptop.

      To test the encryption of Criminal Division laptops, we sampled
40 laptop computers from 7 Criminal Division sections. Our tests
found that laptops within the Criminal Division’s International Criminal
Investigative Training Assistance Program (ICITAP) section were not
encrypted. However, each of the laptop computers we tested in the
other six Criminal Division sections were encrypted.

      We noted that all 10 of the sampled ICITAP laptops used to
process DOJ Data were not encrypted. 9 In addition to not having
whole disk encryption, the laptops contained DOJ documentation such
as reports, a management video, and field notes for ICITAP work. For
example, the laptops included the following data:

   •	 Attorney General Weekly Submission-Iraq Program;

   •	 International Development and Training Programs - Iraq
      Program Update, was marked for Internal Distribution Only;

   •	 Iraqi Program Accomplishments report based on Police,

      Corrections, and Commissions on Public Integrity; and


   •	 Pakistan Program Management Evaluation Report.

       We asked ICITAP and Information Technology Management
officials whether they were aware that sensitive DOJ data was stored
on these laptops. ICITAP officials stated that these laptops were in
use by ICITAP staff, but they were unaware of what files were stored
on the laptops and the nature of their sensitivity. Information
Technology Management officials stated that they were unaware that
the laptops were unencrypted.

     We also asked for the procurement documentation for the 10
ICITAP unencrypted laptops from the Criminal Division’s ICITAP and
Information Technology Management sections. However, they were
unable to provide the OIG with information regarding the procurement

      9
         These laptops were selected because we considered them to be high risk
since they were not listed on Information Technology Management’s laptop loaner
pool inventory and therefore they may not have received Information Technology
Management oversight.


                                       11

 of the 10 unencrypted laptops. ICITAP and Information Technology
 Management informed us that they would search for the purchase
 orders for the unencrypted laptops. However, we received an e-mail
 from a member of the Information Technology Management staff
 indicating that the purchase orders could not be found by either
 section.

      Additionally, ICITAP officials informed the OIG that they believed
the laptops went through Criminal Division‘s Information Technology
Management as directed by Criminal Division policy. However,
Information Technology Management was unable to determine
whether the laptops came through their section prior to use for proper
configuration including encryption. Although Information Technology
Management is responsible for maintaining oversight of laptop security
throughout the Division, it was unaware that these laptops did not
receive the approved configuration baseline.

Baseline Configuration Non-Compliance

      Criminal Division, Information Technology Management SOP,
Stand Alone Laptop PC Management Version 4.2, requires that the
laptop System Administrator keep laptop images up to date. If major
hardware and software updates are needed, a Change For Request
must be submitted and a new image must be created.

       DOJ Order 2640, 2F Section 5, Technical Security Policy, states
that in accordance with DOJ IT Security Standard – Identification and
Authentication (IA) Control, component IT systems shall identify: IT
system users; processes acting on behalf of users; or devices, and
that component IT systems shall authenticate (or verify) the identities
of those users, processes, or devices, as a prerequisite to allowing
access to component IT systems.

      DOJ Information Technology Security Standard, Access Control
Version 2.2 (control AC-08), requires that all DOJ systems display an
approved notification message before granting access to the system.
The warning banner is required to be designed to remain on the laptop
computers’ screen until the user logs on to the information system.
The warning banners are required to be designed to alert potential
system users that they are about to access a federal government
system. Additionally, the banner must warn the potential user of DOJ
system access criteria and ramifications for illegal and unauthorized
system use. The warning banner also should contain DOJ’s privacy
and security notices.


                                  12

      Baseline configurations provide information about the standard
software loaded for a workstation or notebook computer including
updated patch information. Also, baseline configurations provide
minimum information system settings such as password length and
composition.

       We selected a sample of laptops for testing based on the number
of laptops in each section and the sensitivity of the type of work
performed in that section. Specifically, we tested 5 laptops each from
the Computer Crimes and Intellectual Property section (CCIPS), Fraud,
AFMLS, OPDAT, Office of Enforcement Operations, and Narcotics and
Dangerous Drug Section, and 10 from ICITAP.

      We found that laptops imaged at CCIPS and ICITAP do not have
the Information Technology Management approved baselines installed.
Specifically, we noted that of the 40 laptops we tested:

        •	 4 CCIPS and 10 ICITAP laptops did not display a warning
           banner.

        •	 9 ICITAP laptops did not require a Windows password to
           access the system.

      During our testing, we noted that four of the five laptops
selected for sampling at CCIPS did not display a warning banner.
CCIPS stated that laptop computers are re-imaged between usages.
However, we subsequently learned that the images that are used were
not provided by the Criminal Division’s Information Technology
Management section as required by policy. Instead, CCIPS created an
image used for their laptops that does not meet the approved DOJ
configuration baselines.

       During our testing, an Information Technology Management
official became aware of this issue. Based on our results, Information
Technology Management staff scanned the CCIPS laptops to review the
configuration settings. The result of those scans concluded that the
CCIPS image was not in compliance with DOJ requirements, including
maintaining audit logs, password length, and password complexity.
CCIPS informed us that 33 laptops were imaged incorrectly, including
4 of 5 we tested.

     We were informed by a CCIPS official that the section had re-
imaged its own laptops based on the need for its attorneys to access


                                  13

particular applications and run programs that require administrative
access that Information Technology Management’s image does not
allow. According to CCIPS, it received authorization from Information
Technology Management to perform the re-imaging of its laptops. We
requested verification of this authorization from Information
Technology Management and CCIPS; however, neither was able to
provide us with documentation to substantiate this agreement.

      ICITAP also had configuration issues with each of the 10 laptops
we tested. Information Technology Management officials informed us
that they have removed all laptops from operation for further analysis,
as directed by the Criminal Division’s Chief Information Officer. After
performing scans of the ICITAP laptop computers baseline
configurations, an Information Technology Management official
informed us that the laptops did not meet DOJ requirements such as
whole disk encryption, audit logs, password length, and password
complexity.

       During our testing at ICITAP, we also found Limewire, an
unauthorized software program, installed and running on one of the
unencrypted ICITAP laptop computers. Limewire is a free peer-to-peer
file sharing client that makes computers vulnerable by allowing
unauthorized access. Limewire may also allow access to any file on a
user’s computer, including documents with personal information or
DOJ sensitive data, and it allows the dissemination of potentially
harmful viruses and malware. 10 For example, a laptop with Limewire
may allow an unauthorized user to obtain confidential reports such as
the International Development and Training Programs-Iraq Program
Update discussed previously. Publicly accessible peer-to-peer file
sharing technology is not permitted according to the DOJ IT Security
Standards, Systems and Services Acquisitions.

      ICITAP officials were unaware that the unauthorized Limewire
software had been installed on the laptop computer. As a result of our
testing, Information Technology Management recalled the 10 ICITAP
laptops we tested for further analysis, and it plans to surplus or re-
image the laptops.



      10
            Malware refers to a program that is inserted into a system, usually
covertly, with the intent of compromising the confidentiality, integrity, and
availability of the victim’s data, application, or operating system. Malware has
become the most significant external threat to most systems, causing widespread
damage and disruption, and requiring extensive recovery efforts.


                                        14

Encryption Installation Records Not Maintained

       DOJ Order 2640.2F Information Technology Security, Audit and
Accountability, Chapter 1, Section 5, states that DOJ components
should create, protect, and retain IT system audit records to the
extent needed to enable security monitoring, analysis, investigation
and reporting of unlawful, unauthorized, or inappropriate IT system
activity.

      Based on our review of a DOJCERT incident that involved the
theft of an unencrypted laptop computer in May 2009 from the trunk
of an attorney’s car from the Criminal Division’s Fraud section, we
found that Criminal Division laptop encryption records are not
maintained. We met with Information Technology Management staff
to determine the stolen laptop’s level of encryption. Information
Technology Management staff stated that it does not allow any
unencrypted laptop computers to be deployed; however, they could
not provide documentation showing evidence when or if the encryption
software was installed on any laptop. As a result the Criminal Division
is unable to provide sufficient evidence that encryption software was
appropriately installed.

      We contacted the attorney whose laptop was stolen in May 2009.
The attorney reported that he believed the laptop was encrypted and
that multiple layers of authentication were required to access the
laptop, including PointSec encryption software. The attorney and
Information Technology Management staff further stated that little to
no DOJ data was stored on the laptop. The attorney stated that the
data was saved to a U.S. Attorney-issued biometric thumb drive, which
was not stolen and that any information left on the laptop was limited
since the laptop was recently put into service.

      Based on our results, Information Technology Management staff
plan to add a field within their internal database to track laptop
encryption installation on all Criminal Division laptops.

Laptop Inventory Discrepancies

      Office of Management and Budget (OMB) Circular A-130 requires
that a complete inventory of information resources, including
personnel, equipment, and funds devoted to information resources
management and information technology, be maintained to an
appropriate level of detail.



                                  15

       We reviewed several laptop inventories from the Criminal
Division during this audit. Information Technology Management staff
provided us two lists: the first from their internal inventory, which
includes its laptop loaner pool, and the second from ARGIS, which is
the Department’s official property management system. In addition,
two out of the seven Criminal Division sections we reviewed
maintained their own independent inventories and provided us with
copies of the inventories. The other five sections did not maintain
their own inventories. We noted several discrepancies between ARGIS
and the two sections (ICITAP and CCIPS) that maintained internal
inventories.

      Initially, the Criminal Division provided the audit team with the
DOJ’s official inventory from ARGIS. As of November 5, 2009, we
noted that the Criminal Division had 799 laptops.

      We compared the ARGIS inventory to the Information
Technology Management’s internal laptop loaner pool inventory, which
tracks specific laptops used by Criminal Division’s employees,
contractors and vendors performing work across all sections. All
laptops on the Information Technology Management’s laptop loaner
pool inventory reconciled with ARGIS.

        We then reconciled ARGIS to ICITAP’s two internal inventory
lists, one for Information Technology Management-provided laptops for
ICITAP Headquarters and another for laptops that are provided to
foreign field offices through a State Department-funded program.
While reviewing both ICITAP inventories, we noted initially that at least
one laptop was not included in the ARGIS inventory. This one laptop
was eventually found on the ARGIS inventory by the Criminal Division;
it was documented erroneously on the list. However, after bringing
this to ICITAP’s attention, further inspection by ICITAP revealed that
11 of their laptops were not in the ARGIS inventory. To perform their
inspection, ICITAP used a more updated list than the one we were
originally provided. An ICITAP official explained that laptops may have
been dropped from the ARGIS system due to system or operator
error. 11

      We also reconciled ARGIS to CCIPS’s internal inventory of
laptops and found discrepancies. Specifically, nine laptops on the


       11
          According to the Criminal Division, ARGIS is known to randomly purge
records, resulting in inaccurate inventories. The Department is seeking to replace
the ARGIS system in the near future.


                                         16

CCIPS inventory were not listed in ARGIS. According to CCIPS, it does
not have access to ARGIS and therefore did not reconcile their internal
list to ARGIS.

       Without an accurate accounting in the officially approved
inventory, the Criminal Division is unable to ensure that all required
laptop computers are encrypted and deployed compliant with DOJ
policies.

Laptop Computers Owned by Contractors and Subcontractors

OBD 47 Contractor Compliance with PGD 08-04

       As previously discussed in the background section of this report,
the DOJ PGD 08-04 document requires that laptops must employ
encryption using a FIPS 140-2 approved product. The document also
states that the contractor agrees that in the event of any actual or
suspected breach of DOJ data (such as loss of control, compromise,
unauthorized disclosure, access for an unauthorized purpose, or other
unauthorized access, whether physical or electronic), the contractor
will immediately (and in no event later than within 1 hour of discovery)
report the breach to the DOJ Contracting Officer and the COTR.

      During our audit, we sampled laptops in 9 of 18 OBD 47
contractors in the Fraud Section, Asset Forfeiture and Money
Laundering Section (AFMLS), and Office of Special Investigations
located in Washington, DC; Boston; New York; and Miami. We found
that:

   •	 The OBD 47 contracts did not contain the required PGD 08-04
      clause;

   •	 Seven of the nine contractors we sampled processed DOJ data
      on laptops that were not encrypted;

   •	 The Criminal Division did not provide sufficient oversight of data
      security on the contractors’ laptops. The Criminal Division did
      not provide DOJ requirements to the OBD 47 contractors
      regarding standard policies and procedures regarding data
      security, including encryption requirements and procedures for
      addressing data breaches.

     Specifically, on our testing of the OBD 47 contractors, we found
unencrypted laptops that contained sensitive DOJ data such as case


                                   17

related files containing information on financial corruption, medical
records, and information involving genocide. We found that in some
cases, the laptops may have been used by contractors’ family
members for personal use.

      Furthermore, these OBD 47 contractors did not receive specific
guidance and oversight from the Criminal Division regarding data
security measures. By not enforcing the PGD 08-04 clause for its
contract employees, we concluded that the Criminal Division is placing
DOJ data at high risk to loss, corruption, or disclosure.

Mega 3 Contractor Compliance with PGD 08-04

      The Criminal Division also uses three Mega 3 contractors: CACI
International Incorporated, Labat-Anderson Incorporated, and
Lockheed Martin. We reviewed the contracting documentation and
waiver implementation for these contractors and performed interviews
and site visits.

       We found that the Criminal Division’s Mega 3 contracts do not
comply with the PGD 08-04 clause. As noted above, these contracts
have a waiver; however, this waiver requires that alternate security
measures be implemented. Although the Mega 3 contractors at the
Criminal Division do not use non-DOJ laptops, they are still required to
satisfy other requirements. For example, the Criminal Division should
be issuing security guidance, maintaining signed rules of behavior, and
conducting site visits of contractor facilities as a part of the provisions
of the waiver. Based on our review, the Criminal Division is providing
limited security guidance to the Mega 3 contractors and maintaining
signed rules of behavior. However, we noted that the Criminal
Division is not conducting site visits in accordance with the oversight
procedures specific to the waiver for Mega 3 contractors.

      When we asked the Criminal Division whether it had
implemented measures to satisfy compliance with the waiver, the
Criminal Division COTR was unaware that any oversight procedures
were required.




                                    18

      We also conducted two site visits (one Mega 3 contractor and
one subcontractor) to test Criminal Division’s oversight of the Waiver
provisions. We found that:

         •	 The Criminal Division was not conducting site visits to
            determine compliance with DOJ requirements;

         •	 There were no locks on the subcontractors’ rooms where
            they process DOJ information; and

         •	 Standalone computers used to process information were
            not secured via password-protected screensavers.

      In sum, we found that contractors performing work for the
Criminal Division are not securing data in accord with DOJ
requirements. We believe that, by not enforcing the Waiver, the
Criminal Division is placing DOJ data at high risk of loss, corruption, or
disclosure.

Recommendations

      As a result of the issues identified in this report, we make 1
recommendations to the Criminal Division to enhance its safeguards
over DOJ data on laptop computers.

     We recommend that the Criminal Division:

     1.	 Ensure that all current Criminal Division-owned laptops are
         encrypted.

     2.	 Provide all laptops to Information Technology Management
         staff for encryption prior to use.

     3.	 Formalize laptop procurement procedures to ensure that
         laptops are appropriately inventoried, encrypted, and
         processed through Information Technology Management per
         Criminal Division policy.

     4.	 Ensure that the Information Technology Management staff
         approves baseline configurations using DOJ standards on all
         laptops used for DOJ processing.

     5.	 Ensure that a record of encryption is maintained for all
         Criminal Division-owned Laptops.


                                    19

6.	 Enhance procedures for ensuring that the official inventory
    database, ARGIS, maintains accurate and reliable
    information for all Criminal Division-owned laptop computers.

7.	 Ensure that all contractor-owned laptop computers used to
    process DOJ data are encrypted or require contractors to use
    encrypted Criminal Division provided hardware.

8.	 Ensure that Criminal Division contract support providers are
    aware of security procedures for handling DOJ data in
    accordance with DOJ policy.

9.	 Implement the PGD 08-04 clause in all OBD 47 contracts.

10. Implement the conditions of the waiver pertaining to the
    PGD 08-04 clause for Mega 3 contracts.




                            20

           STATEMENT ON INTERNAL CONTROLS

       As required by the Government Auditing Standards, we tested,
as appropriate, internal controls significant within the context of our
audit objectives. A deficiency in an internal control exists when the
design or operation of a control does not allow management or
employees, in the normal course of performing their assigned
functions, to timely prevent or detect: (1) impairments to the
effectiveness and efficiency of operations, (2) misstatements in
financial or performance information, or (3) violations of laws and
regulations.

      Our evaluation of the Criminal Division’s internal controls was
not made for the purpose of providing assurance on its internal control
structure as a whole. The Criminal Division’s management is
responsible for the establishment and maintenance of internal controls.

       As noted in the Finding section of this report, we identified
deficiencies in the Criminal Division’s internal controls that are
significant within the context of the audit objectives and, based upon
the audit work performed, that we believe adversely affect the
Criminal Division’s ability to ensure that DOJ data is appropriately
protected from unauthorized access, use, disclosure, disruption,
modification, or destruction.

      Because we are not expressing an opinion on the Criminal
Division’s internal control structure as a whole, this statement is
intended solely for the information and use of the Criminal Division
and the Department of Justice. This restriction is not intended to limit
the distribution of this report, which is a matter of public record.




                                   21

                STATEMENT ON COMPLIANCE 

               WITH LAWS AND REGULATIONS


      As required by the Government Auditing Standards we tested, as
appropriate given our audit scope and objectives, selected
transactions, records, procedures, and practices to obtain reasonable
assurance that the Criminal Division’s management complied with
federal laws and regulations, for which non-compliance, in our
judgment, could have a material effect on the results of our audit. The
Criminal Division’s management is responsible for ensuring compliance
with federal laws and regulations applicable to the information security
controls. In planning our audit, we identified the following laws and
regulations that concerned the operations of the Criminal Division and
that were significant within the context of the audit objectives:

    •	 Senior Procurement Executive Procurement

       Guidance Document (PGD) 08-04,

    •	 Protection of Department Sensitive Information on Laptop and
       Mobile Computing Devices OMB M-07-16,
    •	 OMB Circular A-130,
    •	 DOJ Order 2640.2F, and
    •	 DOJ IT Security Standards.

      Our audit included examining, on a test basis, the Criminal
Division’s compliance with the aforementioned laws and regulations
that could have a material effect on the Criminal Division’s operations.
We interviewed key personnel within the Criminal Division, as well as
performed a physical review on selected Criminal Division-owned
laptop computers. Additionally, we contacted a select group of
vendors contracted to provide litigation support services to the
Criminal Division.

      As noted in the Finding section of this report, we found that
some of the tested Criminal Division-owned laptop computers were not
encrypted as required by DOJ policy. Also, improvements are needed
with the Criminal Division’s laptop computer program and practices in
the areas of laptop inventory and warning banners. Finally, significant
improvements are required on the use of non-Criminal Division laptop
computers by litigation support providers.




                                   22

                                                            APPENDIX I




        OBJECTIVES, SCOPE, AND METHODOLOGY

      We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

      This audit was performed to assess the Criminal Division’s laptop
computer encryption program and practices. Specifically, our audit
objectives were to determine whether the Criminal Division complies
with federal and DOJ policies regarding: (1) the use of whole disk
encryption on employees’, contractors’, subcontractors’, and other
vendors’ laptop computers used to process DOJ sensitive and classified
information; and (2) laptop computers’ encryption certification
procedures for contractors, subcontractors, and other vendors
providing services to the Criminal Division.

      Our audit covered a 6-month period from July through
December 2009. We performed our fieldwork on-site at the Criminal
Division’s offices in Washington, D.C. and conducted site visits at
contractor offices in Washington, D.C.; New York, NY; Boston, MA; and
Miami, FL. During the audit period, we interviewed Criminal Division
contractor personnel with responsibilities related to encryption policy
development, data security, and deployment practices.

      In addition, we met with the COTR responsible for finalizing
contractual agreements between service vendors, JMD staff, and
Criminal Division procurement and asked questions regarding
contractual security requirements for laptop computers. We also
reviewed the Criminal Division’s contract documents for litigation
support services.

       Our testing of Criminal Division laptop computers was conducted
by selecting a sample of 40 of the 799 Criminal Division’s laptop
computers identified within the official ARGIS database. This non-
statistical sample design does not allow projection of the test results to
all laptops.




                                   23

     We also met with Criminal Division’s Mega 3 contractors and
OBD 47 contractors that perform litigation support services to
determine if the Criminal Division is performing contractor oversight.

      The Mega 3 contracts were awarded to three primary
contractors: CACI International Inc., Labat-Anderson Incorporated,
and Lockheed Martin. In addition to meeting with these three
contractors, we also met with Lockheed Martin’s subcontractor L-
Discovery. The Criminal Division COTR and Mega 3 contractors stated
that Mega 3 contracted litigation support providers do not use laptop
computers. Therefore, we did not have any Mega 3 laptops to test.

      We interviewed 9 of 18 OBD 47 contractors, which covers 15 of
24 DOJ contracts, and reviewed their laptops. The Criminal Division
informed the audit team that OBD 47 contractors did not use Criminal
Division-owned laptop computers to process Criminal Division data.




                                  24

                                                        APPENDIX II


                                ACRONYMS

ADMIN     Office of Administration
AFMLS     Asset Forfeiture and Money Laundering Section
CCIPS     Computer Crime and Intellectual Property Section
CEOS      Child Exploitation and Obscenity Section
COTR      Contracting Officer’s Technical Representative
DOJ       Department of Justice
DOJCERT   Department of Justice Computer Emergency Readiness Team
DSS       Domestic Security Section
FIPS      Federal Information Processing Standards
ICITAP    International Criminal Investigative Training Assistance
          Program
JMD       Justice Management Division
NDDS      Narcotic and Dangerous Drug Section
NSA       National Security Agency
OBD       Offices, Boards, and Divisions
OEO       Office of Enforcement Operations
OIG       Department of Justice Office of the Inspector General
OMB       Office of Management and Budget
OPDAT     Office of Overseas Prosecutorial Assistance, Development
          and Training
PGD       Procurement Guidance Document
SOP       Standard Operating Procedures




                                    25

                                                                                    APPENDIX III


                    CRIMINAL DIVISION’S RESPONSE



                                                           u.s. Department of Justice
                                                           Criminal Division



                                                           Wa<l,lngltm.lJC 205J{)


                                                           March 26, 20 I0


MEMORANDUM


TO:                   .   R~ymond    J Beaudet
                          A~,~ i "lant
                                    In''pector (jeneral
                          Office of the l.nspector General

FRO~:                     Karl Maschin~.,r-                Q   '
                          Acting Executive Officer
                          Cri minal Division

                          Responses to OiG Draft Audit Report: 1he Criminal Division 's Laptop
                          Comnuter Ellcryptioll Program alld Practices


        This memorandum outlines the Criminal Division's response to [he recommendations set
forth in the Draft Audit Report issued by the Office of the Inspector General (OlG) on March 10,
20 10. The Criminal Division appreciates all of the work undertaken by oro in auditine Ih E~
Criminal Division's encryption policies and practices, and agrees witll the recommendations set
forth in the draft Report, subject to the clarifications detailed below. TIle Di vision recognizes the
importance of safeguarding Department infonnation and, for that rt:.ason, has taken immediate
mitigative steps to address the issues identified in this Audit.

         As ao -initial matter; the Criminal Division wishes to emphasize that less than two percent
of all Di vision-owned laptops were found to be non-compliant with encryption requirements, and
the Division believes that this limited encryption-related non-compliance was confined entirely
to onc section as a result of an isolated occurrence several years ago. Moreover, with respect to
the other info rmation security issues identified in the draft Report, including those pertaining to
ba~eline configurations and procurement, the Division believes the incidence of such issues was
similarly limited. Regardless, steps have been taken to bring all identified non-compliant laptops
into lilll eomplillnce and 10 ensure full compli ance going forwa rd. Our efforts in thi ... regard aTC
o utlined below.

                                         Responses to Recommendations

        The OIG made 10 recommendations to the Criminal Division to enhance the Division 's
safeguards over Department data on laptop computers. The OIG's r~'Commcndalions reOeet and
bui ld upon the longstanding policies or the Criminal Division, and consistent with the OIG's




                                                     26

recommendations, the Division has recently taken additional steps to improve its ability to
protect and secure Department infonnation on Division-owned and contractor-owned laptops.

Recommendation 1.      Ensure that all current Criminal Division-owned laptops are encrypted.

         The Criminal Division has a longstanding policy of encrypting Division-owned laptops
prior L use. The Criminal Division believes that the unencrypted laptops fo und in one Criminal
       a
Division sectio n were the result of an isolated purcha...e that took place years ago. All laptops
identified during the OIG Audit as unencrypted have since been reimaged and encrypted, or
excised.

        To help fac ilitate (lnd achieve one hundred percent compliance going forward, the
Division has recently developed Sland<lrd Operating Procedures (SOPs) for laptops. The SOPs
clearly define the steps necessary to ensure that the Division's laptops are I) inventoried
appropriately in the Department's inventory system (ARGlS); 12) loaded with baseline
configurations using DOl standards; and 3) running encryption softw<lrc. In addition, the SOl's
also require that the Information Technology (T1) Security Manager validates the encryption of
each laptop and keeps a record of this action. Each of these steps is completed prior to deploying
the laptop for Dj vision u.~e.


Recommendation 2.      Provide all laptops to Illformation Technology Management stafffor
                       encryption prior to use.

       AlIlT equipment is purchased in coordination with Information Technology
Management (lTM) staff. The Criminal Division's practice in this regard is slTuctured so that
ITM can exercise control over laptops that arc purchased by the Division, thereby ensuring
minimum requi rements and baseline configurations arc applied. Reccnlly, Criminal Division
leadersh ip has strongly rc-cmphasized this policy. Further, as stated above, the recently
developed SOPs also require that all laptops be provided to ITM staff for encryption prior to use.


Recommendation 3.      Formalize laptop procurement procedures to ensure that laprops are
                       appropriately inventoried, encrypted, and processed through Information
                       Technology Management per Criminal Division policy.

       The new SOPs ensure that Department policy and security requirements are fo llowed for
the implementation, admimstration, maintenance, and support of laptop management.

I ARGIS, the Department's official property management system, is known to randomly purge
records, resulting in inaccurate inventories. For this reason and olhers, the Department is
seeking to replace the ARGIS system with a more user-friendly and reliable system in the near
future. In the meantime, to address this systemic problem with ARGIS, Criminal Division staff
will conduct routine inventory verifications to identify lind correct any inconsistencies that result
from this problem with ARGIS.




                                                 27

Recommendation 4.     Ensure that the Information Technology Management staff approves
                      baseline configurations using DOJ standards on all laptops usedfor DOJ
                      processing.

        The recently developed SOPs ensure that laptops are encrypted and imaged using the
minimum requirements and baseline configuration in accordance with DO} standards. These
actions will be validated by the IT Security Managcr when he/she reviews each laptop prior to its
deployment, ensuring this baseline configuration and encryption,

       To remedy the baseline configuration-related departures from policy identified in the
draft Report, a onc hundred percent inventory was completed. All identified non-compliant
laptops have now been re-imaged and veri fied to be consistent with 001 requirements. including
the Criminal Di vision Minimum Configuration Checks, vl.O.


Reoommendatioll S.    Ensure that a record ofencryption is maintainedfor all Criminal
                      Division-oH<'fIed laptops.

       The n.-ccntiy developed laptop SOPs require that each Criminal Division-owned laptop
receives a validation of its encryption when the laptop is deployed. Going forward, Criminal
Division-owned laptops will also be subject to random checks annually, and a record of those
checks will be maintained by lTM staif.


Recommendation 6.     Enhance procedures for ensuring that the official inventory database,
                      ARGIS, maintaillS accurate and reliable information/or all Criminal
                      Division+()wned laptop computers.

        As staled above. Criminal Division administrative management is re-emphasizing that all
IT purchases must be made in consultatiqn with ITM staff. In keeping with the recently
developed SOPs regarding laptop management, all IT equipment will be inventoricd in ARGIS
and will receive baseline configurations. using OOJ standards and encryption, prior to being
deployed. In addition, the ARGIS inventory will be checked on a pcriodic basis to audit system
counts and correct any random purges, as discussed above. The Criminal Division also
encourages the Depmtment to continue to explore the identified issues presented by the ARGIS
system.


Rec:ummendation 7.    Ensure that al/ contractor-owne(/ laptop compmers used to process DOJ
                      data are encrypted or require contractors to use encrypted Criminal
                      Division provided hardware.

         As outlined ill the Department's POD 08-04 Guidance, all work pcrfonned by off-site
contractors for the Criminal Division is rcquired to be stored on an encrypted device. To
facilitate compliance with this requiremem. the Division has adopted a new practice involving




                                               28

the issuance of an encrypted USB storage device by ITM staff to each contractor who needs
computer resources to process Department information. In order 10 comply with the
Dcpanment's encryption requirements, all oontraclOrs must abide by the following rules when
using encrypted USB storage devices:

           •   all infonnation being produced for the Criminal Division must be stored on the
               USB-encryptcd storage device issued by the Di"'ision 's ITM statT;
           •   no information may be copied from the device to the computer being used;
           •   timely notice of any inadvertent departure from the above rules must be made to
               the ITM staff.

        Finally, off-site contractors working for the Criminal Division m ust sign and return
(within 10 business days) a consent form , whereby the contmctor agrees to tIlt: ltmns ami
conditions set forth in the fonn and DOJ' s POD 08-04 O!XIer. These contractors also receive a
detailed memo from the Criminal Division' s Contracting Officer containing rules, instructions,
and the signature sheet to be returned, as well as an attachment outlining the POD 08-04
guidance.


Recommendation 8.     Ensure that Criminal Division contract support providers are aware of
                      security procedures/ r handling DOJ data in accordance with DOJ
                                          o
                      policy.

        As stated above, off-site contractors working for the Criminal Division m ust sign and
retwn (within 10 business days) a consent form, whereby the contractor agrees with the terms
and conditions set forth in the fonn and DOl's PGD 08-04 Order. These contractors also receive
a detailed memo from the Criminal Division 's Contracting Officcr containing rules, instructions,
and the signature sheet to be returned, as well as an attachment outlining the POD 08-04
guidance.


Recommendation 9.     Implement the PGD 08-04 clause in all OBD 47 contracts.

        As stated above, the Criminal Division has issued guidance thal all work performed by
ofT-site contractors for the Division is required to be stored on an encrypted devicc. This
guidance also outlines the rules of behavior by wh ich the off-site contractors must abide when
using the encrypted devices. Before beginning work for the Division, contractors are asked to
cenify that they understand and will comply with these rules of behavior. This change will
ensure that all OBD 47 contracts ~ in compliance with the PGD 08-04.




                                               29

Note: Appendix A of the Criminal Division Management’s response was omitted at
the request of the Criminal Division because it contained sensitive information.




                                      30

                                                       APPENDIX IV



              OFFICE OF THE INSPECTOR GENERAL

             ANALYSIS AND SUMMARY OF ACTIONS

               NECESSARY TO CLOSE THE REPORT


       The OIG provided a draft of this audit report to the Criminal Division
and their comments on the findings and recommendations were considered
in preparing this Analysis and Summary of Actions Necessary to Close the
Report. The Criminal Division’s response is incorporated as Appendix III of
this report. In its response, the Criminal Division concurred with our
recommendations and discussed the actions it will implement in response to
our findings.

       We address later in this appendix the specific responses to each of our
recommendations and the actions necessary to close the recommendations.
First, however, we respond to comments in the Criminal Division’s response
that did not pertain to a specific recommendation.

Analysis of the Criminal Division Response

       In response to our draft audit report, the Criminal Division stated that
less than 2 percent of all Division-owned laptops were found to be non­
compliant with encryption requirements and that it believed that this limited
encryption-related non-compliance was confined entirely to one section as a
result of an isolated occurrence several years ago. We do not agree that our
audit found that less than 2 percent of all Division-owned laptops were non­
compliant. We tested 40 of the 799 Criminal Division-owned laptops and
found that 10 out of 40 laptops (25 percent) were not encrypted. The
Criminal Division is correct that all 10 of the non-compliant laptops were in
one section, and it may also be correct that this was the result of an isolated
occurrence several years ago. However, our report is careful not to project
the results of our non-statistical sample to the universe of 799 Criminal
Division-owned laptops. Similarly, it cannot be assumed that the 759
Criminal Division-owned laptops we did not test are in fact encrypted.

      The Criminal Division’s response does not discuss the more significant
lack of encryption issue we identified with respect to contractor-owned
laptops. We reported that seven of the nine contractors we tested
processed DOJ data on unencrypted laptops. This is a troubling issue that
must be quickly addressed. In addition, our finding on improper baseline
configurations was not limited to an isolated occurrence. In fact, two
sections were found to have baseline configuration issues.




                                      31

  Summary of Actions Necessary to Close the Recommendations

1.	   Resolved. The Criminal Division concurred with the OIG’s
      recommendation to ensure that all current Criminal Division-owned
      laptops are encrypted. This recommendation can be closed when the
      Criminal Division provides relevant SOPs to the OIG for review and
      evidence of encryption validation for the unencrypted laptops we tested.

2.	   Resolved. The Criminal Division concurred with the OIG’s
      recommendation to provide all laptops to Information Technology
      Management staff for encryption prior to use. This recommendation can
      be closed when the Criminal Division provides relevant SOPs to us for
      review and evidence of implementation.

3.	   Resolved. The Criminal Division concurred with the OIG’s
      recommendation to formalize laptop encryption procedures to ensure that
      laptops are appropriately inventoried, encrypted, and processed through
      Information Technology Management pursuant to Criminal Division policy.
      The Criminal Division has stated that it has a plan to correct systemic
      problems and will conduct routine inventory verifications. This
      recommendation can be closed when the Criminal Division provides
      relevant SOPs to us for review and evidence of implementation.

4.	   Resolved. The Criminal Division concurred with the OIG’s
      recommendation to ensure that the Information Technology Management
      staff approves baseline configurations using DOJ standards on all laptops
      used for DOJ processing. The Criminal Division stated that the laptops we
      identified have been re-imaged and verified to be consistent with DOJ
      requirements. This recommendation can be closed when the Criminal
      Division provides relevant SOPs to us for review, evidence of
      implementation, and evidence that the indentified non-compliant laptops
      have been re-imaged in accord with DOJ requirements.

5.	   Resolved. The Criminal Division concurred with the OIG’s
      recommendation to ensure that a record of encryption is maintained for
      all Criminal Division-owned laptops. This recommendation can be closed
      when the Criminal Division provides relevant SOPs and documentation of
      encryption record implementation.

6.	   Resolved. The Criminal Division concurred with the OIG’s
      recommendation to enhance procedures for ensuring that the official
      inventory database, ARGIS, maintains accurate and reliable information
      for all Criminal Division-owned laptop computers. This recommendation



                                        32

      can be closed when the Criminal Division provides relevant SOPs and
      evidence of the Criminal Division’s ARGIS inventory audit.

7.	   Resolved. The Criminal Division concurred with the OIG’s
      recommendation to ensure that all Contractor-owned laptop computers
      used to process DOJ data are encrypted or require contractors to use
      Criminal Division provided hardware. The Criminal Division stated that it
      would provide encrypted USB storage devices to contractors and have the
      contractors sign a consent form agreeing to the terms and conditions of
      the PGD-08-04 guidance. This recommendation can be closed when the
      Criminal Division provides evidence that the procedures have been
      implemented to include: (1) contractor receipt of encrypted USB storage
      devices; (2) contractor-signed consent forms; and (3) the Contracting
      Officer’s memo with signature page regarding rules and instructions
      outlining the PGD 08-04 guidance.

8.	   Resolved. The Criminal Division concurred with the OIG’s
      recommendation to ensure that Criminal Division contract support
      providers are aware of security procedures for handling DOJ data in
      accordance with DOJ policy. This recommendation can be closed when
      the Criminal Division provides evidence of contractor-signed consent
      forms and the Contracting Officer’s memo with signature page regarding
      rules and instructions outlining the PGD 08-04 guidance.

9.	   Resolved. The Criminal Division concurred with the OIG’s
      recommendation to implement the PGD 08-04 clause in all OBD 47
      contracts. This recommendation can be closed when the Criminal
      Division provides evidence of the contractors’ certification that they
      understand and will comply with the rules of behavior prior to performing
      DOJ work and guidance regarding Division work being stored on the
      encrypted USB storage device.

10.	 Resolved. The Criminal Division concurred with the OIG’s
     recommendation to implement the conditions of the waiver pertaining to
     the PGD 08-04 clause for Mega 3 contracts. This recommendation can be
     closed when the Criminal Division provides evidence of that it has re­
     emphasized the DOJ security requirements to all the Mega 3 contractors
     and evidence that site visits are regularly conducted.




                                        33

